                  Department of Veterans Affairs
                  Office of Inspector General



                    Office of Healthcare Inspections

Report No. 13-02235-277



             Healthcare Inspection

  Alleged Patient Rights, Quality of
       Care, and Other Issues
 VA Puget Sound Health Care System
        Seattle, Washington




August 13, 2013

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
           Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound HCS, Seattle, WA



                                 Executive Summary

At the request of Senator Patty Murray, the Office of Inspector General (OIG) Office of
Healthcare Inspections conducted an evaluation in response to allegations brought forth
by a patient related to a dermatology examination the patient received at the Seattle
Division of the VA Puget Sound Healthcare System (system), Seattle, WA.

We did not substantiate that the examination was unnecessary as alleged. However,
we found the provider did not ensure a chaperone was present during the examination
as required. We did not substantiate allegations that the provider nudged and pushed
the patient, did not wash her hands, or had ragged and unkempt fingernails. We
substantiated that the provider did not wear gloves during the examination as alleged,
but determined the use of gloves was not indicated and that this was appropriate
practice. We substantiated that the window in the examination room was not covered,
but determined the window was not covered to aid the provider’s diagnostic exam and it
was unlikely the patient’s privacy was breached. We found that system staff did not
fully respond to the patient’s concerns and did not report the patient’s allegations in
accordance with Federal regulation and VHA policy.

We recommended the System Director ensure the Women Veterans Program Manager
provides chaperone policy education to all primary care clinics. We also recommended
the System Director ensure all staff are informed about the VHA requirement to report
allegations of patient abuse and educated on the processes for reporting the alleged
abuse.

Comments
The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B,
pages 10–12 for the Directors’ comments.) We will follow up on the planned actions
until they are completed.




                                                            JOHN D. DAIGH, JR., M.D.
                                                           Assistant Inspector General for

                                                             Healthcare Inspections





VA Office of Inspector General                                                                      i
               Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound HCS, Seattle, WA




                                                  Purpose

At the request of Senator Patty Murray, the Office of Inspector General (OIG) Office of
Healthcare Inspections conducted an evaluation in response to allegations brought forth
by a patient related to a dermatology examination the patient received at the Seattle
Division of the VA Puget Sound Healthcare System, Seattle, WA (system). The
purpose of the review was to determine whether the allegations had merit.

                                                Background

The system is part of Veterans Integrated Service Network (VISN) 20. It is a two-
division system that provides a broad range of inpatient and outpatient primary and
tertiary care. The system is affiliated with the University of Washington Medical School.
It is the largest referral medical center in VISN 20 and has divisions located in Seattle
(Seattle Division) and Lakewood (American Lake Division), WA.

Dermatology care is offered through the Specialty Care Patient Program at the Seattle
Division. Two full-time, board certified dermatologists, two full-time nurse practitioners,
one full-time registered nurse, and one full-time health technologist provide dermatology
care in examination rooms located in the Specialty Medicine Clinic. During fiscal year
2012, dermatology providers at the Seattle Division had 12,242 patient encounters.

On March 22, 2013, a patient who had been evaluated in the dermatology clinic in mid-
January faxed two documents to Senator Patty Murray. The documents, a Voluntary
Witness Statement (VA Form 0024) and a typed document titled “Sequence of Events
After Official Complaint,” contained allegations related to the dermatology examination.
Senator Murray forwarded the documents to the OIG.

Specifically, the patient alleged that the dermatology examination was unnecessary,
and that the provider nudged and pushed her during the examination, did not wash her
hands, had ragged and unkempt fingernails, did not wear gloves, and the window in the
examination room was not covered.

Psoriasis:

Psoriasis is a common skin disease characterized by the build-up of cells on the surface
of the skin forming thick patches, sometimes referred to as scales or plaques. Psoriasis
tends to affect common anatomic locations, which include the scalp, elbows,
hands/fingernails, feet/toenails, external ear, umbilicus, and gluteal cleft (the groove
between the buttocks above the anus).1 A visual inspection of the common anatomic
locations is necessary to evaluate a patient when psoriasis is a diagnostic
consideration. (See Figure 1.) Areas where two skin surfaces may rub together, such


1
    Habif Clinical Dermatology, 5th Ed., Mosby Elsevier, 2010.


VA Office of Inspector General                                                                         1
             Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound HCS, Seattle, WA


as the gluteal cleft, are inspected for pinking.2 Anatomically, the gluteal cleft is a key
area to visually inspect as it is a common site of involvement in psoriasis.




                                 Figure 1. Common areas of distribution of psoriasis.


                                   Scope and Methodology

We conducted site visits at the Seattle and American Lake Divisions April 16–18. We
toured areas pertinent to the complaint at both divisions. While on-site, we interviewed
the patient, the provider who conducted the dermatology examination, a patient
advocate (advocate), a social worker familiar with the patient’s complaint, and
Dermatology Clinic leadership and staff. While on-site, we also interviewed the system
Director, the Director of Quality Management (QM), infection control staff, the system
Chief of Police, and the Acting Patient Safety Manager. We interviewed the Chief of
Staff, the teledermatology dermatologist, the Acting Service Line Leader for Hospital
and Specialty Medicine, and the Women Veterans Program Manager (WVPM) by
telephone.

We reviewed the patient’s electronic health record, pertinent documents, VHA and
system policies and procedures, competency and privileging documentation,
performance reviews, hand washing surveillance data, and VA Police reporting
documentation.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




2
 Gluteal Pinking refers to red appearing hues seen in the anal area, most commonly at the intergluteal fold (or cleft);
when present, this finding further raises a diagnostic consideration of psoriasis.


VA Office of Inspector General                                                                                       2
             Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound HCS, Seattle, WA



                                           Case Summary

The patient is a female in her mid-forties. In December 2012, during a routine Women’s
Health (WH) Clinic appointment at the American Lake Division, the patient told her WH
provider she had noticed a rash on her left breast for 2 weeks and that this was similar
to a rash she had 10 years prior, which was treated with a steroid cream. The WH
provider noted there was no nipple bleeding, no palpable breast mass or tenderness,
and that the patient’s last mammogram was negative. A routine dermatology consult
request was placed to further address the left breast rash.

In mid-January 2013, the patient presented to the Seattle Division Dermatology Clinic
for the scheduled consult. The dermatology provider noted the patient’s self-reported
history of the left breast rash and prior treatments, and that a “sister may have
psoriasis.” The provider noted, “There are flakes of scalp scale, elbows are clear, no
gluteal pinking, feet are dry, hyperkeratotic, no fissures.” The provider documented a
clinical impression of eczema,3 prescribed clobetasol4 for 1 week, and advised the
patient to follow up in Dermatology Clinic in 8 days. The provider also documented that
the patient received education regarding strategies to lessen the discomfort caused by
eczema and that the patient was pleasant, friendly, and a good historian.

The following day, the patient presented to the American Lake Division and asked to
speak to a patient advocate. The advocate documented the patient was very upset and
felt as though the provider who performed the dermatology examination violated her
rights during the examination.

                                      Inspection Results

Issue 1: Patient Rights

Patients who elect to receive their health care from VHA have rights and responsibilities
that are recognized by VHA.5 Among these is the right to accept or refuse any aspect
of the medical evaluation and treatment, the right to be treated with dignity and respect,
the right to privacy, and the responsibility to ask questions when the patient does not
understand something about their care.

Necessity and Consent: We did not substantiate the allegation that the gluteal cleft
examination was unnecessary and found the patient consented to the examination;
however, we determined the level and quality of communication related to the necessity
of the gluteal cleft examination was subjective.

The patient told us she believed the examination of her gluteal cleft was not necessary
and that the provider “violated her rights” in doing so. In relating the events pertaining

3
  Eczema is a chronic inflammation of the skin. Often, the skin is dry and there may be involvement at skin creases.

4
  Clobetasol is a topical synthetic corticosteroid cream.

5
  Rights and Responsibilities of VA Patients and Residents of Community Living Centers

http://www.va.gov/health/rights/patientrights.asp



VA Office of Inspector General                                                                                     3
              Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound HCS, Seattle, WA


to the examination, the patient told us she asked the provider if her symptoms could be
due to psoriasis because her sister might also have psoriasis. This is supported in the
medical record documentation, the provider noting, “sister may have psoriasis.” We
determined that, because of the patient’s self-reported family history and inquiry as to
the possibility that her symptoms were indicative of psoriasis, the provider would have
been remiss to not examine the gluteal cleft along with the other common anatomic
locations of the disease.

The patient did not refuse or verbally question the necessity of the gluteal cleft
examination before or after allowing the examination. However, we determined the
level and quality of communication related to the gluteal cleft portion of the examination
was subjective. The patient told us the provider asked her if she had a rash on her
buttocks or anal area, and when the patient said, “No,” the provider told the patient she
needed to look anyway. The patient told us she did not ask the provider why the
examination was necessary, but believed the provider should have noted her confused
expression prior to the examination and her changed demeanor after the examination.
The provider believed the patient understood that viewing the gluteal area was
necessary to rule out psoriasis and told us she did not note confusion before, or a
change in demeanor after, the examination. In fact, the provider documented the
patient was pleasant and friendly during the examination.

Dignity and Respect: Due to conflicting information, we could not confirm the allegation
that the provider nudged the patient, pushed the patient forward, or used a forceful
motion during the examination.

The patient told us the provider nudged her, pushed her forward, and used a forceful
motion during the examination of her gluteal cleft. The provider agreed that she
touched the patient’s buttocks in order to separate the soft tissue folds of the buttocks,
which allowed for visual observation of the gluteal cleft. The provider told us the
examination room was small, which we confirmed, and that she may have brushed up
against the patient in the process of positioning herself to conduct the gluteal cleft
examination; however, the provider denied nudging the patient, pushing the patient, or
using unnecessary force to separate the patient’s buttocks during the examination.

Of note, the provider had 2,484 encounters during FY12 and had no patient complaints
filed against her prior to this complaint. The provider’s last two performance reviews did
not indicate any problems with patient interactions, nor were there concerns offered by
current and previous supervisors.

While not an allegation, we found the provider did not ensure a female chaperone was
in the room during the examination of the patient’s left breast and gluteal cleft. VHA
policy6 requires the presence of a female chaperone during examinations involving the
breasts or genitalia of female patients, regardless of the provider’s gender. During
interviews, dermatology staff told us they were unaware of this requirement prior to
learning of the patient’s complaint.

6
    VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.


VA Office of Inspector General                                                                        4
             Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound HCS, Seattle, WA


Prior to our on-site visit, the WVPM recognized the learning needs of the dermatology
staff related to chaperone requirements and provided chaperone policy education to
dermatology staff. The WVPM told us health care providers outside of the WH Clinic
are not always aware that Handbook 1330.01 applies in all VHA health care settings,
and indicated that providing similar education to all primary clinics in the system is
planned.

Privacy: We substantiated that the examination room window was not covered during
the examination; however, we determined the reason the window was not covered was
to aid the provider’s diagnostic exam and it was unlikely the patient’s privacy was
breached due to the room’s second floor location and the patient’s specific positioning in
the room during the examination.

The patient told us the examination room window was not covered and the provider
agreed. The provider told us she intentionally left the window uncovered because
natural light is the best source of light to use during a dermatology examination. During
interviews, the Chief of Dermatology and other dermatology staff concurred, agreeing
that natural light is the preferred light when conducting a skin examination. The
literature supports this.7

The examination occurred on the second story of Building 18, in Room 214. Room 214
has one window, which overlooks a courtyard. A Seattle Division building (Building 1) is
situated across the courtyard, approximately 110 feet away. The patient was seated in
a chair with her back to the window for most of the examination. While seated, the
patient pulled her shirt up to expose her left breast to the provider as part of the
examination. During the gluteal cleft examination, the patient stood, turned, and faced
the window, partially bent forward, and briefly pulled her pants down below her buttocks.
The patient did not allege that anyone observed the examination and the provider did
not believe anyone would have been able to observe the patient through the window
during the examination. We determined no one in the courtyard would have been able
to observe the patient during the examination due to the height of the window and that it
was unlikely anyone in Building 1 would have been able to see into the examination
room and view the patient’s breast or buttocks due to the distance and the patient’s
positioning in the room during the examination.

Since the complaint, and prior to our on-site inspection, dermatology clinic staff have
been instructed to ensure window blinds are closed when examining any sensitive
anatomic areas, such as the breasts or buttocks.

Issue 2: Hand Hygiene – Hand Washing, Fingernails, Glove Use

VHA Directive 2011-0078 and local policy9 require that all health care workers in direct
patient care areas, which includes outpatient clinics, use an alcohol-based hand rub
(AHR) or antimicrobial soap and water before and after having direct contact with a

7
  Burns, T., et al. Editor, Rook’s Textbook of Dermatology, Eighth Ed., Wiley-Blackwell, St. Louis, 2010.

8
  VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.

9
  Memorandum IC-04, Surveillance Prevention and Control of Infection, February, 2012.



VA Office of Inspector General                                                                               5
            Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound HCS, Seattle, WA


patient. Directive 2011-007 also requires that all health care workers wear gloves when
in contact with blood or other potentially infectious materials, mucous membranes,10 and
non-intact skin is anticipated.

Hand Washing: We did not substantiate the allegation that the provider did not wash her
hands before or after examining the patient.

The patient told us she did not see the provider wash her hands before or after the
examination. The provider told us she “always tries to wash her hands before each
patient encounter.” The provider told us sometimes she uses the sink in the
examination room and “most often” uses a wall-mounted AHR dispenser, located
outside the examination room. We interviewed the provider’s supervisor and other
Dermatology Clinic staff familiar with the provider, and none voiced concerns related to
their observations of the provider’s hand hygiene practices.

We conducted an unannounced tour of the Specialty Medicine Clinic on April 18. The
clinic was clean, organized, and stocked AHR dispensers were mounted outside
examination rooms. We inspected the room where the provider conducted the patient’s
examination and noted a wall-mounted AHR dispenser outside the door, a sink and
soap dispenser in the room, a bottle of AHR on a desk, and non-sterile examination
gloves of various sizes in boxes mounted on the wall.

Infection control staff told us the facility uses Purell® AHR, which does not require
washing hands with soap and water between uses unless hands become visibly soiled
or come in contact with bloodborne pathogens or body fluids. This is supported by the
manufacturer’s information and instructions.11 Infection control personnel also told us
staff conduct monthly secret surveillance to monitor hand hygiene in all service areas,
wards, and clinics and report the surveillance data to infection control staff. During
January and February, Dermatology Service hand hygiene surveillance data revealed
97 percent compliance.

Following the complaint, but prior to our on-site inspection, the Chief of Dermatology
told us he re-educated dermatology staff regarding the importance of hand hygiene and
techniques staff can use to assure patients that they have washed their hands.

Fingernails: We did not substantiate the allegation that the provider’s fingernails were
ragged and unkempt on the day of the examination.

In her written statements, the patient said the provider’s fingernails were “very dirty and
unkempt.” During our interview, the patient rephrased her statement and told us the
provider’s nails were not dirty, but that they were “ragged and unkempt.” We were
unable to determine the condition of the provider’s fingernails during the examination.
We noted during our interview that the provider’s fingernails appeared clean, neatly
manicured, and barely extended past the tips of her fingers.

10
    Mucous membranes line body cavities that are exposed to the external environment and internal organs.
Examples include the nostrils, the lips of the mouth, the eyelids, the ears, the genital area, and the anus.
11
   http://www.brands2liveby.com/Purell/content/faq.htm#q9


VA Office of Inspector General                                                                            6
             Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound HCS, Seattle, WA


Glove Use: We substantiated the allegation that the provider did not wear gloves during
the examination; however, we determined the use of gloves was not indicated. We
found the provider followed established Center for Disease Control guidelines,12 VHA
and local policy, and accepted dermatology practice to not use gloves unless
necessary. In fact, we determined the use of gloves would have been contrary to
accepted dermatology practice for this examination.

The patient and the provider both agreed that the provider did not wear gloves while
examining the patient’s left breast, scalp, feet, and gluteal cleft. In performing the
examination, the provider placed her hands on the middle area of the patient’s buttocks
for the purpose of spreading the buttocks in order to visualize the gluteal cleft.

The provider told us an important part of a dermatology examination is the tactile
sensation of feeling the skin and that gloves lessen this. She stated she does wear
gloves if an infectious process is noted in the area(s) to be touched or if it is necessary
to perform a biopsy. We interviewed the Chief of Dermatology, the prior Chief of
Dermatology, and another provider employed in the Dermatology Clinic. All agreed that
the areas examined by the provider did not require gloved hands unless an area
appeared to be infected or a biopsy was to be performed. We reviewed the patient’s
electronic health record and noted there was no documentation of infection and a
biopsy was not performed. We reviewed a photograph of the rash on the patient’s left
breast taken the day of the examination and noted no obvious signs of infection. We
also found Rook’s Textbook of Dermatology supports that touching the skin during a
dermatology examination is important in most instances and that gloves should only be
worn during a dermatology examination when examining (directly touching) the mouth,
genital/perianal region, or in the case of infectious or infected dermatosis.13

Issue 3 – System Response to Alleged Abuse

We found that system staff did not report the patient’s allegations in accordance with
VHA policy. VHA policy requires that staff report events involving alleged or suspected
patient abuse of any kind to their supervisor or facility police and the incident must be
documented in the VHA Patient Safety Information System (patient safety report).14
VHA allows medical centers to customize and design site-specific reporting systems
and policies that fit within VHA’s requirements.

The patient contacted the advocate the day after the dermatology examination. The
advocate told us the patient was visibly distraught and tearful when she approached her
at the American Lake Division The patient told the advocate she believed her “rights
were violated” when the provider conducted an examination of her buttocks area. The
advocate documented the encounter in the Patient Advocate Tracking System (PATS)


12
   Centers for Disease Control and Prevention web site with Guideline for Hand Hygiene in Health-Care Settings

and related materials. Available at http://www.cdc.gov/handhygiene/.

13
   Burns, T., et al. Editor, Rook’s Textbook of Dermatology, Volume 4, Chapter 5, Diagnosis of Skin Disease.

Wiley-Blackwell, St. Louis, 2010.

14
   VHA Handbook 1050.01, VHA National Patent Safety Improvement Handbook, March 4, 2011.



VA Office of Inspector General                                                                                    7
            Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound HCS, Seattle, WA


and selected Issue Code R103, Allegations of Abuse, to categorize the documentation
in the system.15

The advocate notified the Chief of Dermatology and another member of the
dermatology staff, and the Chief responded by calling the complainant. However, after
speaking with the Chief of Dermatology, the patient returned to the advocate stating her
concerns were not resolved. The advocate told us she was uncertain how to proceed
and began contacting other system staff including a social worker, the WVPM, and risk
management staff. Over a course of 8 weeks, the advocate documented eight contacts
related to the allegation with the patient, five face-to-face and three by telephone.

The Chief of Dermatology told us he investigated the allegations himself, but could not
provide documentation of his investigation and did not report the allegation as required.
A social worker, the WVPM, and risk management staff, who learned of the allegations
10 days after the patient informed the advocate, did not report the allegation as
required. The System Director and the Director of QM were not aware of the patient’s
complaints until April 4, when OIG staff called to inform the Director we were reviewing
the complaint.

We reviewed the system’s local abuse and neglect reporting policy and found it did not
advise staff who become aware of allegations of abuse perpetrated by a VA staff
member to notify a supervisor, a management official, or the OIG, and did not advise
staff to report allegations of abuse in the patient safety reporting system.

                                            Conclusions

While we did not substantiate the allegation that the gluteal cleft examination was
unnecessary, we found the provider did not ensure a chaperone was present during the
examination as required, and determined the patient and the provider did not clearly
communicate with each other before or after the gluteal cleft examination. We identified
system weaknesses that led to missed opportunities to address the patient’s
misunderstanding of the necessity of the examination prior to our receiving her
complaint. Specifically, timely reporting to appropriate leadership did not occur.

We did not substantiate the allegations that the provider nudged and pushed the
patient, did not wash her hands, or had ragged and unkempt fingernails. We
substantiated that the provider did not wear gloves during the examination, but
determined the use of gloves was not indicated. We substantiated that the window was
not covered, but determined it was unlikely the patient’s privacy was breached.
However, dermatology staff now ensure windows are covered when examining sensitive
areas.



15
  Patient Advocate documentation is conducted using an electronic documentation system called Patient Advocate
Tracking System (PATS), which tracks patient complaints and compliments at each medical center. VHA
Handbook 1003.4, VHA Patient Advocacy Program, September 2, 2005.


VA Office of Inspector General                                                                                   8
           Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound HCS, Seattle, WA



                                  Recommendations

1. We recommended the System Director ensure the Women Veterans Program
Manager provides chaperone policy education to all system primary care clinics and
monitors compliance.

2. We recommended the System Director ensure all staff are informed about the VHA
requirement to report allegations of patient abuse and educated on the processes for
reporting the alleged abuse.




VA Office of Inspector General                                                                     9
           Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound HCS, Seattle, WA
                                                                                        Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                     Memorandum


   Date:       July 17, 2013

   From:       Director, Northwest Network

   Subject: Healthcare Inspection – Alleged Patient Rights, Quality of
            Care, and Other Issues, VA Puget Sound Health Care System,
            Seattle, WA

   To:         Department of Veteran Affairs, Office of Inspector General



               As the Director of VISN 20, I concur with the response that
               VA Puget Sound HCS has for the recommendations that
               were provided and the completion date of September 1,
               2013.



               (original signed by)
               Lawrence H. Carroll




VA Office of Inspector General                                                                    10
             Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound HCS, Seattle, WA
                                                                                          Appendix B
                          System Director Comments


                Department of
                Veterans Affairs                                      Memorandum


   Date:        July 9, 2013

   From:        System Director, VA Puget Sound Health Care System

   Subject: Healthcare Inspection – Alleged Patient Rights, Quality of
            Care, and Other Issues, VA Puget Sound Health Care System,
            Seattle, WA

   To:          Network Director, VISN 20 (10N20)

       1.	      Thank you for the opportunity to respond to the recommendations
                from the OIG Hotline Visit at VA Puget Sound Health Care System,
                Seattle, Washington.

       2.	      Attached please find the facility responses to each of the findings
                from the review.

       3.	      If you have additional questions or need further information, please
                contact Jane Penny, Director Quality Improvement at (206) 764­
                5522 or via e-mail Jane.Penny@va.gov.




                (original signed by)

                Michael J. Murphy, FACHE

                Health Care System Director





VA Office of Inspector General                                                                      11
           Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound HCS, Seattle, WA



                         Comments to OIG’s Report
The following System Director’s comments are submitted in response to the
recommendations in the OIG report:

OIG Recommendations

Recommendation 1. We recommended the System Director ensure the Women
Veterans Program Manager provides chaperone policy education to all system primary
care clinics and monitors compliance.

Concur

Target date for completion: September 1, 2013

Facility response: Based on the preliminary discussion with the OIG team, facility
leadership tasked the Women Veterans Program Manager with developing a chaperone
policy for the facility. A draft chaperone policy has been completed and requires service
lines to monitor compliance. The policy will be posted, fully implemented, and
education of primary care staff will be completed by September 1, 2013.

Recommendation 2. We recommended that the System Director develop a policy that
complies with Federal regulations and VHA policy to ensure staff and managers
understand alleged abuse reporting requirements, processes, and time frames, and
educates system staff and managers regarding the policy.

Concur

Target date for completion: September 1, 2013

Facility response: Based on the preliminary discussion with the OIG team, facility
leadership tasked the Patient Centered Care Coordinator and Service Line Leader for
Social Work with developing a facility policy guiding the response to allegations of
abuse against staff. A draft policy has been completed. The policy will be posted, fully
implemented, and education of staff will be completed by September 1, 2013.




VA Office of Inspector General                                                                    12
           Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound HCS, Seattle, WA
                                                                                        Appendix C

                 OIG Contact and Staff Acknowledgments
Contact	                 For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors	            Thomas Jamieson, MD
                         Stephanie Hensel, RN




VA Office of Inspector General                                                                    13
           Alleged Patient Rights, Quality of Care, and Other Issues, VA Puget Sound HCS, Seattle, WA
                                                                                        Appendix D



                                  Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, Northwest Network (10N20)
Director, VA Puget Sound Health Care System (663/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Maria Cantwell, Patty Murray
U.S. House of Representatives: Denny Heck, Jim McDermott, Adam Smith




This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                    14
